CERTIFICATE OF SERVICE
No. 21-234
In the Supreme Court of the United States
KEVIN R. GEORGE,
Petitioner,
v.
DENIS R. MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS,
Respondent.
I, Jeremy Cooper Doerre, a member of the Bar of this Court, do hereby certify
that on this 15th day of September, 2021, I caused three booklet copies of the Brief of
Jeremy C. Doerre as Amicus Curiae in Petitioner to be served by third-party
commercial carrier (FedEx) for delivery within 3 calendar days, and an electronic
copy to be served by email, on the following counsel for the parties:
Melanie Lynn Bostwick
Orrick, Herrington & Sutcliffe LLP
1152 15th Street NW
Washington, DC 20005
mbostwick@orrick.com
Counsel for Petitioner
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent
I further certify that all parties required to be served have been served.

Certificate of Service, p. 2

I also certify that on this 15th day of September, 2021, I caused forty copies of
this brief in booklet format and one unbound copy of this brief printed on 8½ x 11
inch paper to be sent via a third-party commercial carrier (FedEx) for delivery to the
Clerk of this Court within 3 calendar days.
In addition, this brief has been submitted electronically through the Court’s
electronic filing system.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 15, 2021
Jeremy Cooper Doerre
Tillman Wright, PLLC
3440 Toringdon Way, Ste. 310
Charlotte, NC 28277
jdoerre@ti-law.com
(704) 248-4883

